<html>
<title> - DEPARTMENT OF JUSTICE OVERSIGHT: FUNDING FORENSIC SCIENCES--DNA AND BEYOND</title>
<body><pre>[Senate Hearing 108-323]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-323

  DEPARTMENT OF JUSTICE OVERSIGHT: FUNDING FORENSIC SCIENCES--DNA AND 
                                 BEYOND

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON ADMINISTRATIVE OVERSIGHT AND THE COURTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2003

                               __________

                          Serial No. J-108-33

                               __________

         Printed for the use of the Committee on the Judiciary




91-831              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

        Subcommittee on Administrative Oversight and the Courts

                    JEFF SESSIONS, Alabama, Chairman
CHARLES E. GRASSLEY, Iowa            CHARLES E. SCHUMER, New York
ARLEN SPECTER, Pennsylvania          PATRICK J. LEAHY, Vermont
LARRY E. CRAIG, Idaho                RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   RICHARD J. DURBIN, Illinois
                 William Smith, Majority Chief Counsel
                 Jeff Berman, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  prepared statement.............................................    58
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    97
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     1
    prepared statement...........................................   105

                               WITNESSES

Baden, Michael M., M.D., Director, Medicolegal Investigations 
  Unit, New York State Police, New York, New York................    22
Clark, Frank J., District Attorney, Erie County, Buffalo, New 
  York...........................................................    20
Hart, Sarah V., Director, National Institute of Justice, 
  Department of Justice, Washington, D.C.........................     5
Hillman, Randall, Executive Director, Alabama District Attorney's 
  Association, Montgomery, Alabama...............................    16
Johns, Susan Hart, President, American Society of Crime 
  Laboratory Directors, Springfield, Illinois....................    19
Neufeld, Peter, Co-Director, Innocence Project, Benjamin N. 
  Cardozo School of Law, Yeshiva University, New York, New York..    24
Serra, Rosemary, New Haven, Connecticut..........................    14

                       SUBMISSIONS FOR THE RECORD

Baden, Michael M., M.D., Director, Medicolegal Investigations 
  Unit, New York State Police, New York, New York, prepared 
  statement......................................................    32
Clark, Frank J., District Attorney, Erie County, Buffalo, New 
  York, prepared statement.......................................    34
College of American Pathologists, Division of Government and 
  Professional Affairs, Washington, D.C., statement..............    38
Downs, J.C. Upshaw, M.D., Forensic Pathologist, Savannah, 
  Georgia, statement.............................................    42
Fisher, Barry A.J., Crime Laboratory Director, Los Angeles County 
  Sheriff's Department, Los Angeles, California, statement.......    50
Hart, Sarah V., Director, National Institute of Justice, 
  Department of Justice, Washington, D.C., statement.............    62
Hillman, Randall, Executive Director, Alabama District Attorney's 
  Association, Montgomery, Alabama, statement....................    85
Johns, Susan Hart, President, American Society of Crime 
  Laboratory Directors, Springfield, Illinois, statement.........    90
Serra, Rosemary, New Haven, Connecticut, statement...............   100

 
  DEPARTMENT OF JUSTICE OVERSIGHT: FUNDING FORENSIC SCIENCES--DNA AND 
                                 BEYOND

                              ----------                              


                        THURSDAY, JULY 31, 2003

                              United States Senate,
Subcommittee on Administrative Oversight and the Courts, of 
                            the Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:09 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jeff 
Sessions, Chairman of the Subcommittee, presiding.
    Present: Senator Sessions.

OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATORFROM THE 
                        STATE OF ALABAMA

    Chairman Sessions. Good afternoon. It is a busy, busy day. 
The floor is in a state of uproar, as is normal. I understand 
we have got a conference or two meeting. Senator Schumer 
expects to join us if he possibly can in a little bit.
    The issue before us today is an important one. Forensic 
evidence evaluation is a critical and fundamental part of the 
criminal justice system today more than ever. Everyday in this 
country, thousands of crimes are solved through the combination 
of hard work of law enforcement and the crime lab scientists 
and technicians who evaluate fingerprints, ballistics, drug 
samples, DNA, and other forensic evidence.
    Crime labs all across the country play a critical role in 
criminal and civil investigations. These labs face the mounting 
task of performing an array of forensic services. Over the last 
several years, I have been concerned that our Nation's forensic 
labs lack the resources to do their jobs promptly, effectively, 
and properly.
    I was a Federal prosecutor for 12 years and I know that the 
job of a prosecutor depends heavily on the work of forensic 
scientists. If their jobs are not done properly, society is at 
risk. In fact, more and more prosecutors depend on 
laboratories.
    As Americans, we have become familiar with television shows 
such as ``CSI'' and ``Law and Order,'' and the novels of 
Patricia Cornwell, who helped us promote the Paul Coverdell 
legislation a couple of years ago, in which the forensic 
scientists have the most up-to-date equipment. No expense is 
spared when it comes to investigations of crime in those 
television shows and books.
    Unfortunately, that is not the reality in State and local 
crime labs across the country. Instead, the reality is that 
this country's crime labs are severely understaffed and work 
with equipment that for the most part is, at best, mediocre. 
These labs are suffering from severe underfunding, and that 
underfunding creates a bottleneck in the criminal justice 
system, stifling the ability of prosecutors to try cases in a 
timely manner and leaving far too many crimes, including 
murders, rapes, and child molestations, unsolved, and leaving 
people who are entitled to be cleared of crimes uncleared of 
crimes.
    I have spoken with representatives from the American 
Society of Crime Lab Directors, the Consortium of Forensic 
Science Organizations, the American Academy of Forensic 
Sciences, the National Association of Medical Examiners, the 
College of American Pathologists, the International Association 
for Identification, State prosecutors, and State and local law 
enforcement about this lack of funding.
    All of these individuals and groups tell me that the lack 
of personnel, staff, and funding has created a crisis for State 
laboratories. They all say that drug analysis, ballistics 
tests, fingerprint evaluation, and all of the other forensic 
science evaluations are often backlogged. Let me share with you 
the following examples of the crime lab evidence backlog.
    The Alabama Department of Forensic Sciences has a drug 
chemistry analysis backlog of 11,917 cases, a firearm 
evaluation backlog of 700 cases, and a DNA backlog of over 
2,000 cases.
    The Los Angeles Police Department has over 6,000 murder 
cases in which fingerprints have not yet been evaluated because 
it cannot afford to update its fingerprinting analysis 
equipment.
    The New Hampshire State Forensic Laboratory has a 13-month 
fingerprint analysis backlog. I didn't even think they had 
crime in New Hampshire. I thought everybody lived on a mountain 
top and listened to Judd Gregg. But they have a 13-month 
fingerprint backlog, a 3-month drug analysis backlog, and a 7-
month firearm analysis backlog.
    The Phoenix, Arizona, crime lab has a drug analysis backlog 
of 3,500 cases, a fingerprint backlog of 5,900 cases, a firearm 
backlog of 412 cases, and a 342-case DNA backlog. The Kentucky 
State Police has a backlog of about 6,000 drug identification 
cases that will take 9 months to process.
    Like I said, forensic evidence evaluation backlog of drug 
analysis, ballistics testing, fingerprinting evaluation, DNA, 
and others is clear and undisputed. Backlogs of this magnitude 
mean tardy investigations, criminals put back on the streets, 
and innocent suspects detained too long while awaiting the 
outcome of forensic evaluations.
    President Bush and Attorney General Ashcroft have 
introduced a DNA Initiative which seeks just over $1 billion 
over a period of 5 years to reduce and eliminate the DNA 
evidence backlog and for other DNA-related purposes. It is 
designed to improve the use of DNA technology, which is very 
important in the criminal justice system, especially the 
Federal, State and local crime labs, by providing funds, 
training, and assistance.
    Some of its fiscal year 2004 provisions include $92 million 
to assist in clearing backlogs of unanalyzed crime scene DNA 
samples, such as rape kits and offender DNA samples. There is a 
growing concern in this Senate and in the Congress that we have 
got to move these rape kits. A backlog is just not acceptable.
    Ninety million dollars will go to increased forensic 
laboratory capacity for DNA analysis, Federal DNA laboratory 
programs, and to operate and improve the Combined DNA Index 
System, and $28.4 million for DNA-related research and 
development.
    Besides funding, the DNA Initiative includes the Attorney 
General's recommendations that we here in Congress passed 
legislation to require that all convicted felons submit a DNA 
sample when they are convicted--they ought to be in the index, 
just like their fingerprint is; expansion of the statute 
governing the national DNA index to allow States which submit 
DNA profiles, to include all of those persons who are lawfully 
arrested--presently, only convicted offenders can be submitted, 
or are eligible to be submitted to the profile; and that the 
statute of limitations be tolled or stopped when DNA evidence 
identifies the offender that may have occurred some time after 
the statute of limitations has begun to run, the time in which 
a person can be charged.
    This is an admirable and worthwhile initiative, and I would 
like to help the administration work to implement some of these 
legislative recommendations. These are important concepts for 
Federal prosecutors and law enforcement, but I think that the 
problem with this initiative is that it only funds the backlogs 
of DNA evidence.
    A 2003 survey by the American Society of Crime Laboratories 
of State and local forensic laboratories found that DNA 
evidence accounted for only 5 percent of the total backlog in 
those facilities. Fingerprint analysis, drug analysis, 
questioned documents, and other forensic discipline work made 
up the bulk, the other 95 percent, of the laboratory backlog.
    I know that it is not the responsibility of this Congress--
and this important--or for the Federal Government to take over 
State crime labs, to pay all the expenses of State crime labs 
in the 50 States when it comes to State-run facilities. That is 
not a healthy example of federalism. We should not do that. 
However, if we are going to fund such programs to some degree, 
our focus should be on the areas which need the funding most, 
and in this situation the entire filed of forensic needs 
assistance.
    The crime labs would benefit in different ways from funding 
through the DNA Initiative because labs have backlogs in every 
type of evidence, including DNA. For instance, the Georgia 
Bureau of Investigation has a fingerprint analysis backlog of 
6,096 cases and a DNA backlog of 434 cases.
    The Philadelphia crime lab has a drug analysis backlog of 
2,832 cases and a firearm analysis backlog of 2,072 cases, and 
yet only a 344-case backlog for DNA analysis. The Illinois 
crime lab has a drug analysis backlog of 2,067 cases, a 
fingerprint analysis backlog of 3,132 cases, a firearm analysis 
backlog of 591 cases, but only a 309-case backlog of DNA 
evidence.
    Some crime labs do not even have a backlog in DNA evidence. 
For example, the Columbus, Ohio, crime lab has a 920-case drug 
analysis backlog and no DNA backlog. The Vermont crime lab has 
a drug analysis backlog of 350 cases, a fingerprint backlog of 
250 cases and no DNA analysis backlog.
    But looking to backlogs may not be sufficient for us. Law 
enforcement needs very prompt forensic evidence analysis 
reports. Often, the filing of criminal charges or the 
advancement of an investigation is stopped and put on hold 
until the scientific analysis is complete. Our goal should be 
that our crime labs around America are able to supply for their 
police and prosecutors reports of analysis in days, not weeks, 
not months, and not years. This would be a huge advancement in 
criminal justice.
    We need to fund forensic sciences and reduce the backlog of 
evidence across the board. States need to step up and do more. 
In 1996, USA Today reported that 8 out of 10 crime labs 
experienced a growth in their caseload that exceeds the growth 
in their budget and staff. Unfortunately, this statistic from 7 
years ago seems still to be the norm today.
    I recall the story--and D.A. Robby Owens over there has 
probably heard me tell it--in Alabama about a man I got to meet 
who ran a dry cleaners. He had heard me speak about the need to 
move cases promptly, and delaying a case going to trial didn't 
help anything. He said he really made his success in the 
business by buying dysfunctional laundries and dry cleaners. He 
would find clothes stacked up; they couldn't find them, they 
were lost. It was just a mess. People would come back and ask 
for them and they hadn't been cleaned, and he wasn't able to 
collect any money.
    He set up a system so when the person brought in the 
clothes for cleaning, the assistant would take and put them 
right in the machine that minute. And there it was back and 
waiting on the rack, waiting for the customer within an hour.
    Well, this whole criminal justice system today to an 
extraordinary degree--every police officer, every D.A., every 
court, every judge, is dependent on prompt receipt of 
information from the forensic laboratories. People expect it.
    In the past, you know, you might not have to provide 
fingerprint analysis or drug analysis or DNA analysis, but you 
have to do it today. People have seen these shows on television 
and they expect it, and they have a right to when we can do it. 
So I would like to see us set a goal for America, and it can't 
all be done from Washington, but we need to engender a vision 
of the possibilities for criminal justice in America.
    If every drug analysis, every fingerprint, every DNA, and 
every other scientific analysis reasonably possible could be 
produced for the investigative agencies within days, it would 
change law enforcement more than anything I can imagine, and 
realistically would not be expensive compared to all the other 
things we are spending money on in law enforcement. It would be 
very inexpensive.
    Ms. Sarah Hart, thank you for coming and listening to my 
diatribe there.
    Sarah Hart was nominated by President Bush to be the 
Director of the National Institute of Justice and was sworn in 
as Director on August 7, 2001. Before her appointment, Ms. Hart 
served as Chief Counsel for the Pennsylvania Department of 
Corrections, a challenging job, and as a prosecutor in the 
Philadelphia District Attorney's Office.
    You had a good boss. You didn't go back to Senator Specter, 
though, did you?
    Ms. Hart. My husband was an intern for him. I was not.
    Chairman Sessions. He was a good one, and I know the 
current one there is--what is her name?
    Ms. Hart. Lynn Abraham.
    Chairman Sessions. Yes, Lynn Abraham.
    Ms. Hart. I just met with her last week about DNA.
    Chairman Sessions. She is a committed prosecutor and 
professional.
    You have served as lead counsel in Federal litigation 
involving the prison system of Philadelphia.
    Previously, Ms. Hart has provided substantial assistance to 
the State of Pennsylvania and to the Judiciary Committees of 
both the House and the Senate in developing legislation that 
addressed prison litigation reform.
    We are delighted to hear from you. You have an important 
task before you and we will be delighted to hear your comments 
on this subject.

  STATEMENT OF SARAH V. HART, DIRECTOR, NATIONAL INSTITUTE OF 
        JUSTICE, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Ms. Hart. Thank you very much, Mr. Chairman. I am very, 
very pleased to be here today to discuss two very important 
topics--the President's initiative, Advancing Justice Through 
DNA Technology, and also support for other forensic sciences.
    Everyday, we read about how DNA has solved previously 
unsolvable crime, linked seemingly unrelated crime, and 
identified serial predators. In my hometown of Philadelphia, a 
serial rapist, dubbed the Center City Rapist, murdered a 
Wharton graduate student and raped several other women. Over a 
year later, DNA evidence tied these Philadelphia rapes to a 
series of rapes in Colorado. This gave the police a key piece 
of information. They were looking for somebody who was in these 
two locations at these specific periods of time.
    Armed with this information, they identified a suspect. DNA 
confirmed his guilt. He pled guilty to all of his crimes and 
all of the rape survivors were spared the trauma of a trial. 
Without DNA evidence, those crimes would not have been solved.
    Unfortunately, the power of this technology to advance 
justice has been limited due to insufficient funding, 
insufficient laboratory capacity, information systems that are 
inadequate, overwhelming caseloads, and a lack of training.
    Despite a substantial Federal effort to reduce the backlog 
and improve crime labs, there are hundreds of thousands of DNA 
samples awaiting analysis, many of them, if not most of them, 
rape kits. This is plainly unacceptable and it is wrong.
    The President's DNA Initiative is a 5-year, over $1 billion 
plan to eliminate backlogs and prevent them from occurring in 
the future. I have provided the specifics of the President's 
initiative in my written testimony, but this comprehensive 
strategy includes all of the elements that you outlined, 
Senator Sessions.
    While the President's DNA Initiative is a comprehensive 
approach to building the Nation's capacity to use DNA evidence, 
the Justice Department continues to dedicate significant 
resources to enhance other areas of forensic science, such as 
fingerprint identification, the analysis of explosives, drugs, 
firearms, and arson.
    Many Department of Justice agencies have each invested 
millions of dollars to help equip and train Federal, State and 
local law enforcement, and to fund research into new forensic 
technology. A stunning example of this is the FBI's Integrated 
Automated Fingerprinting Identification System. We all know it 
as IAFIS.
    To illustrate, in just 1 day last week, on July 23, IAFIS 
processed nearly 67,000 sets of fingerprints from Federal, 
State and local law enforcement agencies. This included over 
38,000 sets of criminal fingerprints, with an average response 
time of 53 minutes.
    The ATF's National Integrated Ballistic Information Network 
program--we call it NIBIN--helps State and local agencies solve 
firearm-related violent crime. Since fiscal year 2001, ATF has 
spent over $73 million on the NIBIN program. A significant 
portion of this funding directly supplies State and local law 
enforcement agencies with NIBIN equipment.
    The President has also directed the creation of a National 
Forensic Science Commission, to make recommendations on 
maximizing the use of all forensic sciences in law enforcement.
    The National Institute of Justice has also funded over $15 
million in research and development projects involving forensic 
tools and techniques other than DNA. For example, we have 
funded elemental analysis of glass and paint materials, 
improved software for testing evidence from seized computers, 
development of three-dimensional bullet profiles, and 
teleforensic projects, just to name a few.
    In the last several years, NIJ has also provided over $94 
million under its Crime Laboratory Improvement Program. At the 
same time, the Bureau of Justice Assistance has provided more 
than $30 million through 234 specific local law enforcement 
block grants to States and localities for crime lab 
improvement, non-DNA forensic technology and equipment, and 
forensic training.
    Since fiscal year 1995, the Bureau of Justice Statistics 
has provided nearly $400 million to improve our Nation's 
criminal records and information databases, and this 
information is also used by crime labs in solving crime.
    We at the Department of Justice recognize that most of the 
law enforcement and prosecution in this Nation occurs at the 
State and local levels. Having been a prosecutor for 16 years 
in Philadelphia, I especially know this. At the same time, we 
will continue to support State and local crime labs in their 
non-DNA forensics, as well as their forensic DNA work. This 
joint approach will help bring the guilty to justice, eliminate 
innocent suspects, and ensure public safety.
    Thank you very much, Mr. Chairman, and I would be very 
pleased to answer any questions you may have.
    Chairman Sessions. Thank you, and well stated. Would you 
have an estimate just for perspective here--and I certainly 
wouldn't hold you to it, but how many scientific analysis 
requests were made by the Philadelphia Police Department and 
DA's office as compared to the Federal officials in 
Philadelphia?
    Ms. Hart. I remember when I was a prosecutor, I used to 
mention, Mr. Chairman, that we prosecuted more crimes in 
Philadelphia than the entire Federal Government did. Now, I 
realize that our DUIs might not have been comparable to some of 
the more complex cases. But, yes, that was the bulk of crime.
    Chairman Sessions. But they frequently had drugs involved, 
so you have to have a chemical analysis of the drug.
    Ms. Hart. That is correct.
    Chairman Sessions. Fingerprints on a robbery, maybe, or 
blood on assaults, and firearms.
    Ms. Hart. Well, it is interesting that you should bring up 
the Philadelphia crime lab. I think it is a good example of 
some of the problems that we are facing in this country.
    Even though you mentioned that Philadelphia had a 
relatively low DNA backlog, Philadelphia has done that by 
simply funding half of the analysis for DNA. So although they 
have half of the crime of the State of Pennsylvania, none of 
their DNA cases are going into the CODIS databank. All they are 
doing is comparing it with known suspects and other cases in 
Philadelphia.
    They are not comparing that DNA to convicted offender 
profiles. They are not comparing it to see whether it is 
occurring in another county or across the State, whether there 
are related crimes. Frankly, that is not the kind of system 
that you want. You want to be able to encourage these labs, 
especially these major labs that are handling large volumes of 
crime, to be able to make use of this Federal database that is 
such a powerful tool.
    Chairman Sessions. Will the President's proposal allow 
funding for those kinds of things, too?
    Ms. Hart. It would allow it for the local laboratories 
directly, yes. One of the problems we found is that by funding 
it directly to the States, most of the money was going to the 
State labs and the big jurisdictions were not getting the 
money.
    So, for example, in Los Angeles we saw the unfortunate 
circumstance of thousands of crime scene samples being thrown 
away because they had not been tested for years. I can't begin 
to imagine what those thousands of rape survivors must be 
thinking after going through all of that to have the evidence 
taken and have a rape kit, only to learn that the system has 
thrown the evidence away and nothing will happen.
    Chairman Sessions. That is not acceptable.
    Tell me again what it is--for those laypersons that will be 
listening, what it is that Philadelphia is doing and what they 
further could and should be doing, and explain why that is 
important. I think I know, but I would like to get it straight.
    Ms. Hart. Well, if I may just first say I don't mean to 
pick on Philadelphia.
    Chairman Sessions. Absolutely. We have got problems all 
over America, but it is something you know because you have 
been there.
    Ms. Hart. Right. A very, very committed bunch of people are 
working with limited resources. They are not getting direct 
Federal funding. So what they are doing at this point is that 
you have a lab that is only doing--instead of doing analysis of 
the 13 loci that are required to go into the database, they are 
only doing 7; they are only doing half of that.
    Now, that is enough to tell you with very, very good 
precision whether that particular person matches somebody else, 
but it is not consistent with the quality assurance 
requirements of the FBI's CODIS requirement.
    Chairman Sessions. The FBI's CODIS requirement is the 
national index?
    Ms. Hart. Yes. I am glad you are explaining for me and I 
appreciate the help. We tend to all speak in acronyms and I 
apologize for doing it here.
    Mr. Chairman, as you know, the Combined Offender DNA Index 
System, I think it is called, is comprised of a variety of 
systems. You have what we call LDIS, which is your local DNA 
system where people like Philadelphia can put it into their 
local databank. Usually, those get uploaded into State systems, 
which are SDIS. And then the State can send their stuff--if it 
meets the requirements of the Federal law and the FBI's quality 
assurance guidelines--they can upload that into the national 
database, the NDIS.
    What happens is you have a lot of DNA profiles out there 
that are not getting into the national database. So, for 
example, Virginia, which has many arrestees and juveniles--
many, many profiles that they have cannot be uploaded into the 
national database. What you have is a lot of jurisdictions who 
are aware that there are all these other databases out there 
developing a system of faxing requests out to each lab. Each 
lab will input it separately and do a search and give that 
information back, but a very inefficient system that wastes a 
lot of very valuable law enforcement and crime lab time.
    Chairman Sessions. Because they don't do the complete 
analysis of the DNA material and they don't have a sufficient 
quality analysis, the FBI will not accept it for their system 
and it is not in the national system.
    Ms. Hart. That is correct.
    Chairman Sessions. I am going to ask a question. It seems 
to me we need to confront this proliferation of systems. I 
mean, Pennsylvania has a system, the city of Philadelphia, the 
FBI has a system. It seems like it is a tremendous cost. We 
ought to be able to use one system that everybody could inquire 
of, and then you wouldn't have to worry about whether or not it 
was in some other State.
    Ms. Hart. With the President's proposal, I think these 
issues will very much be addressed. I mean, ultimately the 
collection of evidence occurs at the local system, and you need 
to have that go up ultimately to the Federal system. What you 
want to make sure of is that at the local system, when testing 
is being done, that it is being done in a quality way and it is 
meeting national guidelines.
    At the same time, we need amendments to the Federal law to 
permit States to send in all of their lawfully-collected 
samples so that we don't have this proliferation of separate 
databases.
    Chairman Sessions. Well, I would agree with that.
    What about the States that have basically caught up on DNA? 
Are they able to access any of the money under the bill as it 
is now written?
    Ms. Hart. Well, we are working with Congress on the 
legislation. Nothing has been introduced yet, but I think 
everybody who is involved with this is very mindful of the fact 
that you would certainly not want to penalize the States that 
have done it right. We want to make sure that we eliminate 
these backlogs. We want to make sure that no rape victim feels 
that their evidence has not been tested. They should know that 
the system was trying to find the perpetrator.
    But at the same time, every system frankly can use 
improvement and use help. We still have significant backlogs 
throughout the country not only in case work samples and 
convicted offender samples, but a very, very significant 
backlog in what we call the owed samples. We suspect it to be 
about a half million to a million samples that the State law 
requires that they be collected, but, in fact, they have not 
been collected.
    Chairman Sessions. I think Federal law has a 5-year statute 
of limitations on almost every crime, except maybe murder. 
Let's say there was a serious assault and DNA was taken and it 
did not produce a hit. Eight years later, an individual commits 
another serious assault or murder or rape and their DNA goes in 
the system and, bingo, this is conclusive proof that this was 
the person that committed that crime. Under Federal law, what 
would happen to that defendant on the first charge?
    Ms. Hart. At this point, they could not be prosecuted if it 
was too old. You bring up a very good point. There was also a 
recent case in Philadelphia, a 1986 rape and homicide of 10-
year old Heather Coffin that was just solved a few weeks ago. 
The defendant was arrested just a few weeks ago and pled guilty 
right away to the crime.
    The reason that case could be prosecuted was it was a 
homicide and there are no statute of limitations for homicide. 
But if that had only been a rape and not a homicide, there is 
still a very compelling interest in being allowed to prosecute 
that case. The evidence didn't go stale. The many reasons that 
you often have a statute of limitations bar are to deal with 
issues that witness's recollection isn't as good down the road. 
The evidence may become stale.
    The unique thing with DNA is that evidence does not become 
less reliable or less persuasive. It is equally reliable 
whether it is day 1 or year 50, and for that reason--
    Chairman Sessions. So it will remain valid for 50 years?
    Ms. Hart. If you do that sample, 50 years down the road you 
can do that.
    Chairman Sessions. Yes.
    Ms. Hart. In fact, you are seeing some old testing where, 
for example, the Romanov family was recently identified in 
Russia through mitochondrial DNA testing. Those murders were 
done, I believe, not quite 100 years ago. So it is a very 
remarkable technology that is able to solve things and give us 
answers that we didn't anticipate we would get before.
    Chairman Sessions. Well, I think we need to deal with the 
statute of limitations question. For serious crimes of 
violence, that is particularly important because, 
unfortunately, people who commit crimes of violence--rape, 
pedophilia--tend to do it again.
    I don't know what the numbers would be, but if you go out 
and take a cohort of people who have committed a serious 
assault and a cohort who have not, there would be probably 50 
times as many second assaults committed by the first group. I 
believe that is one of the reasons we have done some good with 
crime prevention in America through the repeat offender laws. 
We are identifying those repeat offenders and they are serving 
longer time. It may not be perfectly in accord with reality, 
but basically it works in hammering away at the repeat 
offenders. The thought that someone could get away from a very 
serious crime because they were 5 years and 1 day late before 
it was discovered is not acceptable to, I think, most 
Americans.
    With regard to the funds that are there and how they can be 
used, would you support language that would help laboratories 
who don't have DNA backlogs or who could show they don't need 
it all on DNA to use it on something else?
    Ms. Hart. Well, the President's initiative contemplates 
capacity-building for crime labs, and much of the proposals, 
the things that we are looking at, have application across the 
board to help crime labs in a variety of ways with other types 
of evidence.
    One of the things that we think is very important for crime 
labs to have is laboratory information management systems. We 
call them LIMS. If you think about it, we go to supermarkets 
and you see all of your inventory that is controlled with a bar 
code and people can know where stuff is and what is happening 
and who has bought what.
    But if you go to most crime labs, you will see people, very 
highly trained scientists, hand-writing out form after form 
after form. Some of the basic technologies for managing that 
evidence, such as using bar codes and computer systems, are 
missing from some of the crime labs. Those kinds of 
improvements would go across the board both to DNA and non-DNA 
evidence. Also, it would free up a significant amount of staff 
time that can be devoted to other things.
    In addition, the President's proposal also talks about 
evidence storage. The reason that we have such a difficult time 
getting a handle on the DNA backlog is because it appears that 
almost all of it is sitting on police shelves and not at the 
crime labs. That is because the crime labs lack the kind of 
storage capacity for the evidence.
    Chairman Sessions. Director Hart, is there a definition of 
what a backlog is?
    Ms. Hart. I don't think any formal one.
    Chairman Sessions. Is it a month, a week, or 6 months?
    Ms. Hart. I think at this point people are counting what is 
sitting on the shelves. And you are right. I think your point 
is a very good one. If it is sitting there for a day, it is a 
little hard to say that is really a backlog because in the best 
of all circumstances, there is going to be a certain amount 
that sits there.
    So it is not so much the amount, but how long it has been 
there. In other words, if you are able to process 10,000 cases 
a week and you have 10,000 cases sitting there, it would be a 
little misleading to say there is a backlog of 10,000 cases. So 
it is difficult to put a handle on it, especially because so 
much of this is not actually in the crime lab.
    Chairman Sessions. Director Hart, you note either in this 
testimony or in the House testimony that you gave that you have 
hopes, or we have the capacity to develop new systems that 
would allow the processing of DNA in minutes rather than hours, 
with less people and more accuracy. What can you tell us about 
that?
    And I would just add parenthetically that I am a very 
strong believer that a person in your position that is 
supporting, in a way, law enforcement throughout America--that 
research to help bring online rapidly something that would help 
every laboratory in America reduce their costs would be a 
wonderful thing to promote.
    Ms. Hart. When I talk about this, Mr. Chairman, I often 
give the example about when I was a child and somebody told me 
that there would be a computer in every house. And at the time, 
the computer was about the size of a garage, and I just 
laughed. I thought that was ridiculous, that nobody would ever 
be able to afford it, and why would you have something of that 
size.
    If somebody had told me then that we would have actually 
more than one computer in my house, I wouldn't have believed 
it. But the reason we got there was because we made them 
smaller, we made them faster, we made them cheaper, and we made 
them easy to use. That is what we need to be doing in law 
enforcement for DNA.
    We have a kind of mantra, which is ``faster, better, 
cheaper.'' What you want is for DNA to be able to be used as a 
routine law enforcement tool, and that means it has to be cost-
effective and it has to be relatively inexpensive. Portability 
is the ideal that we would like to have, something very small 
and very precise.
    So our research funding is directed that way. We are 
developing DNA on a chip which uses nano technology to reduce 
the amount of time to do a DNA test. That was the funding we 
provided to MIT's Whitehead Institute to develop that, and we 
are working with NIST, also, to try and bring that up to speed 
so that we can start using it. So that is one of our goals 
here. If we want to make this a routine law enforcement tool, 
which is what the President's vision is, we need to make it 
very accessible, easy to use, and inexpensive.
    Chairman Sessions. How close are we to significantly 
improved processing equipment?
    Ms. Hart. We are a ways out on this particular chip. We are 
making advances all the time with DNA. One of the major 
advances that we had, for example, within just the last year 
followed out of the September 11 tragedy and the World Trade 
Center.
    We were faced with that with a very unprecedented DNA 
question, which was how do you identify so many human remains? 
With so many potential victims, how do you sort everybody out? 
And here you had families who were desperate to have their 
loved ones identified. We had the Nation's experts from all 
around the country come in; many volunteered their time. As a 
result of that tragedy, we have had major advances in the 
science of how to analyze degraded remains from that.
    The science of DNA is moving so rapidly. Some of it is 
being developed in the private sector, some in the public 
sector. We try and leverage funds wherever we can, but there 
are major advances going on in this.
    Chairman Sessions. Well, you know, if it is pretty clear 
that a new technique could reduce time and cost of DNA or 
cocaine analysis or anything else, I think we really ought to 
put the money into getting that down, helping the users get it 
as soon as possible, because it will just save the system money 
and make it work better.
    Thank you for your testimony and for your leadership. I 
guess with regard to research and improvement of the system, do 
you believe we need to be doing that for the other areas of 
forensic analysis, other than just DNA?
    Ms. Hart. Absolutely, and we continue to support it and we 
will.
    Chairman Sessions. One of the things you are going to need 
to wrestle with and all of us need to wrestle with is all these 
different databases. The ATF has got theirs. They used to have 
a fight with the FBI, you know, over guns analysis. I think 
they have settled that, and a waste of taxpayers' money to an 
unnecessary degree.
    DEA has a drug database, Customs has a database, the 
Philadelphia Police Department has a database. Everybody has 
got them, and one of the things I would like to spend some time 
on in the months to come is analyzing how we can make that 
better, make the whole system that needs to be national be 
available nationally.
    For example, it is a secret who are here illegally. At 
least that is my little way of saying it. We have found that 
INS does not put their fugitive warrants in the NCIC, and no 
police officer that stops somebody on the road is going to 
think to call the local INS office before they let somebody go. 
They should be in there if they have got a warrant for their 
arrest or they are a fugitive. I think we have got a lot of 
work to do on making that system be as powerful as it could be.
    As a person who spent a lot of years in law enforcement, I 
am well aware, as you noted in your opening comments, that 
these hits on older cases help solve more crimes than most 
people ever know. It really has helped us identify repeat, 
dangerous offenders and get them off the streets, and has been 
a reason for the declining crime rate, I think.
    Do you have anything else?
    Ms. Hart. No. Thank you very much for inviting us.
    Chairman Sessions. Thank you for your leadership.
    Ms. Hart. We appreciate it. Thank you.
    [The prepared statement of Ms. Hart follows:]
    Chairman Sessions. We will bring up the next group. The 
next group will include Susan Hart Johns who is the Bureau 
Chief of the Illinois State Police Division of Forensics and 
currently serves as President of the American Society of Crime 
Laboratory Directors and Administrators. She has worked as a 
laboratory analyst and a laboratory director, and has been 
active in the field of forensics for 25 years.
    Come on and you can be seated. If there are name cards, we 
will put them out.
    Dr. Michael Baden is a board-certified forensic pathologist 
and former chief medical examiner for New York City.
    How many books have you written, Dr. Baden?
    Dr. Baden. A few, sir.
    Chairman Sessions. He is the author of Dead Reckoning: The 
New Science of Catching Killers.
    You could probably write some individual case stories.
    In addition to maintaining a private practice, he is the 
Co-Director of the New York State Police Medicolegal 
Investigative Unit and has served as President of the Society 
of Medical Jurisprudence and Vice President of the American 
Academy of Forensic Sciences.
    As an expert in forensic pathology, Dr. Baden has been 
involved as an expert in numerous cases of interest, including 
the assassination of Dr. Martin Luther King, the death of John 
Belushi, and the examination of the remains of Czar Nicholas, 
of Russia, and family.
    Peter Neufeld is a co-founder and Director of the Innocence 
Project at the Benjamin Cardozo School of Law, Yeshiva 
University. An expert on DNA evidence, Mr. Neufeld is Co-Chair 
of the National Association of Criminal Defense Lawyers' DNA 
Task Force. In 1995, he was appointed by the New York State 
Governor's Office to the Commission on Forensic Science, which 
regulates all State and local crime laboratories. Mr. Neufeld 
obtained his law degree from the New York University School of 
Law in 1975.
    Chairman Sessions. Mr. Randy Hillman was the chief 
assistant district attorney in Shelby County, Alabama.
    Mr. Hillman. Yes, sir.
    Chairman Sessions. And currently serves as Executive 
Director of the Alabama District Attorney's Association. He 
graduated from Cumberland School of Law and entered the private 
practice of law in Mobile, Alabama. From there, Mr. Hillman 
practiced as an assistant district attorney in Shelby and 
Jefferson County, Alabama, before leaving the DA's office in 
Shelby, Bessemer Division. Now, he is the Executive Director of 
the State Association. So he brings the perspective of the 
district attorneys themselves and as a hands-on prosecutor who 
dealt with cases personally.
    Mr. Frank Clark is the District Attorney in Erie County, 
New York, and has been in that position since 1997. Prior to 
that, he was Deputy District Attorney in Erie County and served 
as the Chief of the Organized Crime Drug Enforcement Task Force 
in western New York for 5 years and as the chief of the Violent 
Felony Bureau in the Erie County District Attorney's Office. 
Mr. Clark is a decorated veteran of the Vietnam War, where he 
earned the rank of captain.
    Ms. Rosemary Serra is currently a stay-at-home mom, retired 
after 20 years from Federal Express as an operations manager. 
She is one of millions of people in this country who have been 
victims of crime. Her victimization was due to the murder of 
her sister, Penny, and today she will tell us about her 
experiences.
    Ms. Serra, you will start off and give us a perspective 
from the world where people lose loved ones as a result of 
crime and how that, in your opinion, impacts forensic science 
analysis.

      STATEMENT OF ROSEMARY SERRA, NEW HAVEN, CONNECTICUT

    Ms. Serra. Mr. Chairman, Members of the Committee, I was a 
victim for 28 years. On July 16, 1973, my only sibling, 21-
year-old Penny Serra, was stabbed to death on a sunny afternoon 
in a parking garage not more than 2 miles from her home. Penny 
was not only my sister and best friend, but also my surrogate 
mother, since our own mom had died when I was 6 and she was 11.
    Although the murderer left behind a calling card of 
evidence, he was not apprehended until June 1999, 29 years 
after the murder, almost to the day of Penny's death. During 
those days, I graduated from high school, attended college, 
dealt with the false arrest of a person who the police 
suspected murdered my sister, an acquittal, four primary 
suspects, my father's death, and my becoming an adult.
    Although at the time of the murder DNA was not more than 
letters of the alphabet, the crime scene investigators took 
meticulous care in collecting, preserving, and logging the 
evidence found at the scene. Throughout the next 26 years, the 
key pieces of evidence--a tissue box with a thumb print, a 
hanky with fluid, paint chips, and a bloody parking ticket--
were hauled from the police department to the chief State's 
attorney's office, from one forensic lab to the next.
    From 1973, and for close to three decades, this evidence 
went through every technological advance of testing that was 
available. Literally thousands of manpower hours were spent in 
laboratories from coast to coast. The fingerprint on the tissue 
box seemed to always split the investigation into two schools 
of thought. One was that the print was that of the assailant; 
the other was the murder was a crime of passion. Hence, the 
fingerprint was not a key factor. Both theories were pursued 
vigorously.
    As years went by, my father's perseverance on keeping the 
case active was heart-wrenching but successful. I, however, had 
lost faith of ever finding my sister's murderer. My life as I 
knew it was over and the hope of closure seemed to diminish as 
years passed. However, unknown to me as I was trying to build a 
new life, strangers were working furiously to find my sister's 
murderer. Christopher Grice, a forensic lab technician in 
Connecticut, is just one of those individuals.
    On July 30, 1994, Mr. Edward R. Grant was fighting with his 
girlfriend. After a heated exchange that took place at her home 
in a nearby town in Connecticut, Grant beat his girlfriend 
enough that she filed charges with the local police department. 
Grant was taken into custody and booked on an assault charge. 
His fingerprints were taken as part of routine police procedure 
and entered into the FBI regional fingerprint database.
    Christopher Grice, working from the Connecticut State 
Police Forensic Science Laboratory in Meriden, had been 
involved with our case since the early days of the 
investigation. Then a print specialist in the detective bureau 
of the New Haven Police Department, Grice had memorized the 
whirls and ridges of the thumb print found on my sister's 
Kleenex box.
    As he sifted through literally thousands of prints for a 
match, of course, at the time no computer database for criminal 
fingerprints existed. There were just dedicated individuals 
hovering over black and white cards, tracing an individual's 
unique markings.
    Mr. Grice, who now administers the Automated Fingerprint 
Identification System, routinely runs checks for all of the 
unidentified prints associated with unsolved cases in the 
State. This was the process he undertook in July of 1997, 3 
years after Grant's arrest. Several possible matches were found 
in respect to my sister's murder case, and by process of 
elimination Edward R. Grant's print appeared on the screen with 
a match of at least 12 points.
    After 3 years of tireless effort, the State prosecutor and 
his team built a strong forensic case against Grant and we 
entered superior court armed with everything but a motive. The 
print on the tissue box was unquestionably Grant's. The DNA in 
the blood on the parking ticket matched Grant's DNA by a ratio 
of greater than 1 in 1 billion. The paint chip, which we did 
not realize at the time was a paint chip, which was found at 
the scene matched the paint used at the auto body shop which 
Grant owned.
    Edward R. Grant was prosecuted and convicted in May 2002 
solely on forensic science. He is now serving a 25-year 
sentence for the murder of my sister, and hopefully will never 
see another day of freedom. On the day of Grant's sentencing, 
my long-awaited ache for closure was achieved and my days of 
being a victim were over. In the past year, I have adopted a 
beautiful daughter, Jessica Anne, and look forward to new 
beginnings.
    This story could have died along with my sister if it were 
not for the qualified and dedicated personnel who worked on 
this case, or the wide spectrum of forensic science analysis 
available in this country. Edward Grant would still be walking 
the streets a free man and I would still be looking over my 
shoulder for the person who stole my youth and my beloved 
sister.
    I am not a scientist and would be lying if I said I 
understood the mechanics of forensic science. I am just one of 
many who depend on forensic science professionals for justice. 
To spend government money solely on DNA would be a travesty and 
an injustice to all the victims and families with unsolved 
cases in this country. Please think of Penny Serra when you 
think of forensic science, and be aware that this case, along 
with 50 percent of all other homicides, cannot be prosecuted on 
DNA alone.
    I would like to submit my written statement for the record, 
and I thank you for your time.
    Chairman Sessions. Thank you for that impressive story. It 
brings a human face to what these people do, so many do 
everyday, and it saves lives and brings justice and closure for 
a lot of victims of crime. We thank you for sharing that with 
us very, very much.
    Just one question. It was the fingerprint that got the 
original hit confirmed by the DNA and the paint. Would that be 
correct?
    Ms. Serra. Exactly. If it was not for the fingerprint, it 
was a needle in a haystack. He would have never been arrested.
    [The prepared statement of Ms. Serra appears as a 
submission for the record.]
    Chairman Sessions. All right, let's see. I guess we will 
just start at the left with Randy Hillman. It is good to see 
you again and we are glad that you are here and glad that 
Robbie was able to come, too.
    Share your thoughts with us, and I think you have a story 
to share, too, about how this can save lives.

   STATEMENT OF RANDALL HILLMAN, EXECUTIVE DIRECTOR, ALABAMA 
      DISTRICT ATTORNEY'S ASSOCIATION, MONTGOMERY, ALABAMA

    Mr. Hillman. Yes, sir. First, Senator, let me thank you for 
asking us to be here and represent the perspective of the 
prosecutors. One of my brothers is down here from New York and 
I am sure he can tell you a lot of what prosecutors face with 
forensics as well.
    First, let me very quickly clarify my background. I spent 3 
years between Jefferson and Shelby Counties as an assistant DA, 
and then I spent 9 years as the chief assistant for Mr. Robbie 
Owens, behind me. Eighteen months ago, I assumed this job, 
which is the Director of the Alabama District Attorney's 
Association. Now, it is my responsibility to represent all 42 
DAs throughout the State of Alabama.
    I have been in the trenches. I have tried, I can't tell you 
how many felony cases, misdemeanors. I have spanned the whole 
gamut of prosecution. I can't tell you how important it is that 
we fund all areas of forensics. DNA is a good thing. I applaud 
the President and the other people for what they are trying to 
do, but DNA makes up a very small part of what we deal with 
everyday.
    The majority of our cases in forensic sciences deal with 
the other disciplines. Fingerprints, questioned documents, and 
drugs are a major part of what we deal with everyday. Without 
forensics, I don't think there would be any question amongst 
here that the criminal justice system would absolutely shut 
down.
    Let me talk very quickly about Alabama. The Administrative 
Office of Courts in Alabama, their numbers show that between 
1990 and 2000, just in Alabama, our caseload felonies went up 
by 54 percent over the previous 10-year period of time.
    Taylor Nogel, who is the Director of the Alabama Department 
of Forensic Sciences, says we have more work than we can 
possibly do; we are just swamped. All of his disciplines--
toxicology, fingerprints, drug chemistry, ballistics, firearms, 
trace evidence--all of those disciplines are severely 
underfunded and overworked.
    In Alabama, I did kind of an informal survey of all of our 
prosecutors. We estimate that somewhere around 40 percent of 
our caseload, of our dockets, are directly drug cases. Those 
are the possessions, the trafficking, the manufacturers. 
Methamphetamine is a huge problem for us now. We get 
clandestine labs out there in the rural parts of our counties. 
Forensic workers have to go out and process these labs because 
they are so dangerous.
    We have currently--and I think you said it in your 
statement earlier, Mr. Chairman--we have somewhere around 
12,000 cases that are backlogged for just our drug chemistry 
section in the State of Alabama.
    One other point. Ms. Serra was talking about the 
fingerprint analysis. In Alabama, we have one fingerprint 
analyst in the whole State. We just cannot continue to do our 
business when they are at that level, when forensics is at that 
level.
    What happens--and it is a trickle-down effect--when 
forensics gets behind, then it clogs our dockets; it puts us 
way far behind. For example, Robbie, sitting behind me--Shelby 
County has somewhere between 165 and 170,000 people. We process 
roughly 2,000 to 2,200 felonies a year. Right now, we have a 
pending backlog of 1,000 felonies sitting there waiting on 
trial. Most of them are waiting on forensic reports.
    Not only does it stymie the criminal justice system, not 
only does it slow it way down, but is also causes other 
problems for us. During that wait, during that period of time 
between--let's say there is an initial arrest and the time that 
the samples come back from the Department of Forensic Sciences. 
We are running more and more into problems with the defendant 
being out there on the street causing or committing other 
crimes.
    Two examples, and I will be very brief with these. Crenshaw 
County, Alabama. Last August, a defendant was out on bond from 
a distribution of cocaine charge, had been out on bond almost a 
year. It was 11 months before the toxicology report came back 
on his particular case.
    Chairman Sessions. Not indicted, but released after arrest?
    Mr. Hillman. I am not sure if he was indicted or not, 
Senator. Most of the time, we do not indict cases. There is an 
arrest and we sit back, or oftentimes cases are brought to 
grand jury first.
    Chairman Sessions. But the question is, without the 
chemical analysis, some district attorneys will not indict. 
Some will make the indictment, but they can't go to trial until 
they have scientific confirmation that the substance is a drug.
    Mr. Hillman. Right.
    Chairman Sessions. So, somehow, the analysis hasn't come 
back on this case 11 months later?
    Mr. Hillman. Yes, sir. It was still with the Department of 
Forensic Sciences.
    In that interim, this defendant went to his girlfriend's 
house and spent the entire day, started at seven o'clock that 
morning and went until nine o'clock that evening, 
systematically murdering six members of her family. As each 
would come home, he would murder that person--six people over 
the course of 1 day. Had we gotten that tox report back a 
little bit sooner, maybe we could have done something to 
prevent that.
    Chairman Sessions. I would note I think that is the largest 
mass, serial murder in 1 day in Alabama history. And I think it 
is possible that had the report been readily available, and 
there had not been a backlog, he might have been serving time 
for distributing cocaine rather than being out there murdering 
people.
    Mr. Hillman. Yes, sir.
    Chairman Sessions. I thank you for sharing that story.
    Mr. Hillman. Yes, sir.
    Chairman Sessions. And that happens to a much less dramatic 
degree all over America everyday when cases sit for long 
periods of time.
    Mr. Hillman. Yes, sir.
    Chairman Sessions. Go ahead.
    Mr. Hillman. One other very quick example. Covington 
County, Alabama. A defendant is arrested in January. The drug 
that he is charged with possessing and trafficking in, a large 
quantity of methamphetamine, is submitted to the Department of 
Forensic Sciences for analysis. Seven months later, he takes a 
plastic garbage bag and puts it over his 7-year-old daughter's 
head and suffocates her to death. Ultimately, that sample took 
us 16 months to get back. Mind you, I am not disparaging the 
people who are doing this work. They are just swamped and don't 
have the ability to do what they are asked to do.
    The unseen aspect of all this--you hear about the violent 
crimes that are occurring while people are out on bond. What 
society does not understand about what we see everyday is the 
drug offenders. That is the big problem. You will arrest a drug 
offender for selling cocaine. He makes bond, he gets back out 
on the street. He can go and do this again and again and again, 
and if he is caught, he will go back through the same process 
while we are waiting on the tox reports to come back. You have 
multiple, multiple victims, often young, often children, from 
that set of circumstances, and people don't often see that and 
I would very much like for this Committee to know that.
    Chairman Sessions. Mr. Hillman, you will wrap up fairly 
quickly and we will--
    Mr. Hillman. Yes, sir. I am sorry.
    Chairman Sessions. This has been fascinating, but we have 
got a good panel here.
    Mr. Hillman. I apologize.
    Chairman Sessions. That is all right.
    Mr. Hillman. One final thing is investigations. We are 
stymied oftentimes with investigations; for example, DUI 
murder, DUI homicide, those types of cases. The intoxication, 
whether it be on alcohol or controlled substances--that is the 
main element of the offense. It is taking us anywhere from 9 
months to 12 months to get a toxicology report back from the 
Department of Forensic Sciences.
    Meanwhile, the victim's family and the defendant are out 
there. Oftentimes, the defendant is on bond. The victim's 
family is just lost until we can establish if this defendant 
was intoxicated, and that is a tragedy that we shouldn't have 
to go through.
    One last statement, if I may, please, sir. This Committee 
and this body has a chance to do something that prosecutors 
rarely get the chance to do. You have a chance to make a 
difference up front. You have a chance to help us be proactive 
and prevent some of these things from happening. Ninety-nine 
percent of the time as prosecutors we react and we don't get a 
chance to prevent things from happening. You all have the 
chance to do that and I would respectfully ask that you do.
    Chairman Sessions. Thank you very much. It is just 
important to know that steps in investigation are not going to 
be taken until the toxicology reports or the reports come back. 
Indictments can't be returned, people can't be arrested, trials 
can't be held. The whole system is dependent on getting these 
reports in, and for every one dramatic case there may be 
thousands of others which, if not dealt with promptly, could 
become another dramatic case.
    [The prepared statement of Mr. Hillman appears as a 
submission for the record.]
    Chairman Sessions. Ms. Johns, you are the President of the 
American Society of Crime Lab Directors. We are delighted that 
you can be with us. Give us your thoughts, please.

 STATEMENT OF SUSAN HART JOHNS, PRESIDENT, AMERICAN SOCIETY OF 
   CRIME LABORATORY DIRECTORS (ASCLD), SPRINGFIELD, ILLINOIS

    Ms. Johns. Thank you very much for the honor and privilege 
of testifying today. Like you said, I have been in the crime 
laboratory for 25 years. I have analyzed evidence, I have 
presented my findings in court. I have also been a laboratory 
director, managing resources, and currently I am responsible 
for our Westchester and Chicago laboratories.
    Today, I am here speaking as the ASCLD president, but I am 
also speaking as a lab director and a member of the forensic 
community, and I am speaking in support of providing funding 
for all forensic disciplines in the crime laboratory.
    Many of the examples or remarks I was going to make you 
have already covered in your opening remarks, so I might skip 
over them. But I do want to make the point that our crime 
laboratories analyze evidence, and that is a critical element 
of the criminal justice system.
    I once heard forensic laboratories referred to as the B 
team in criminal justice. While more visible front-liners are 
seen as essential, the crime laboratory is relegated to a 
support position, expendable when times are rough. And we are 
in rough times when it comes to State and local funding for 
forensic resources.
    Like you said, the majority of the cases worked in this 
country are worked in State and local crime laboratories. You 
gave the same examples I was going to use, in that these rough 
times have resulted in crime laboratory closings and in layoffs 
in talented and trained personnel.
    Mr. Chairman, resources have an impact on the quality of 
the work being done in our laboratory. ASCLD supports 
accreditation, but not all of our members are accredited, and 
the reasons given for not being accredited are related to 
resources both in the personnel needed and in the costs of the 
program itself. I personally believe the cost of not being 
accredited far exceeds the cost of accreditation. As you have 
mentioned and given numerous examples, the lack of resources 
causes a bottleneck and significant delays.
    Crime laboratories analyze all types of evidence. As of 
July of this year, there were 237 laboratories accredited by 
the American Society of Crime Laboratory Director's Laboratory 
Accreditation Board. Eighty-three percent of those laboratories 
have accredited sections which analyze for controlled 
substances. Sixty-one percent of those laboratories have 
firearm sections, 59 percent have sections which analyze trace 
evidence, 58 percent have forensic biology/DNA sections, and 49 
have latent fingerprint sections. My submitted report has a 
full list of all of those areas accredited.
    Problems in laboratories are not unique to evidence type. 
Backlogs--and it is interesting you did ask what a backlog was, 
and it can be defined, but backlogs are created when evidence 
is submitted to the laboratory faster than it can be analyzed. 
Not all evidence, though, has the same requirements for 
training, equipment, personnel, and facilities.
    I would like to emphasize one thing, also. Workload is 
different than backlog. We don't get to choose the type of 
analysis that we perform. It works the other way around. The 
evidence that is presented to us determines or dictates what 
types of analyses are performed.
    In Illinois this year, our workload has been more than 
55,000 cases. Seventy-two percent of those cases--now, this is 
the workload, the cases coming into the laboratory--required 
drug analysis. Eight percent need latent fingerprint analysis, 
5 percent need toxicology analysis, 4 percent need firearms, 
and 3.8 need what I will call forensic biology.
    Let me clarify what forensic biology is. Forensic biology 
is you have to examine the material presented for body fluid 
type or what type it is. After you do that, approximately half 
of those samples or half of those cases yield a sample which is 
suitable for DNA analysis. So only approximately half of the 
3.8 percent of the cases coming to the laboratory even have 
samples suitable for DNA analysis. I think that is an important 
point for you to note. I have polled our crime laboratories 
and, like you, have found similar numbers on the cases that are 
backlogged.
    I think assistance has been provided to the crime 
laboratory community through a variety of programs, to include 
the forensic resource network and grant programs from the 
National Institute of Justice. These programs have invaluable 
in assisting the community as a whole to address issues ranging 
from quality systems, training models, and accreditation and 
certification.
    But additional resources are needed, and the lack of 
resources is the common denominator for crime laboratories. 
There is no one-size-fits-all approach that will address our 
problems. There are differences in the types of evidence used 
in criminal justice and each of those evidence types have 
different needs.
    Controlled substances, latent fingerprints, firearms, 
toxicology, trace evidence, and forensic biology DNA are all 
part of the crime laboratory. We need assistance that is 
flexible and can be used to address the full range of issues 
that we deal with in the laboratory.
    I would like to thank you on behalf of ASCLD and if you 
have any questions, I would be happy to try to answer them for 
you.
    [The prepared statement of Ms. Johns appears as a 
submission for the record.]
    Chairman Sessions. Thank you, and we will have some. Thank 
you for that good presentation.
    DA Clark?

 STATEMENT OF FRANK J. CLARK, DISTRICT ATTORNEY, ERIE COUNTY, 
                  NEW YORK, BUFFALO, NEW YORK

    Mr. Clark. Thank you, Mr. Chairman. Although it is sad, it 
is somewhat comforting for me to find out I am not standing 
alone in this problem.
    I would like, if I could, Mr. Chairman, to kind of focus in 
on what one urban area faces in this. We are a community of 
about 1 million people. I would say we probably have about 
2,000 police officers, we have 100 prosecutors, and right now 
we have 16 technicians in our lab. It has got a $1.8 million-a-
year budget.
    Chairman Sessions. You are not counting prison guards, 
probation officers, judges and their law clerks, and everybody 
else that deals with crime?
    Mr. Clark. No, sir. I am just talking about policemen on 
the street.
    Sixty percent of our $1.8 million budget comes from State 
and Federal grants, which means that our county only finances 
40 percent of the lab. It gets requests from more than 50 
agencies in our county, and we also handle requests from six 
neighboring counties which are much smaller and not able to 
afford those types of things themselves.
    I am going to kind of limit my comments in two areas; 
firearms, number one. In the city of Buffalo this year, for the 
first 6 months we have had over 1,000 shootings, which is up 30 
percent from the average of the past 5 years. So we plainly 
have a problem.
    In every case that we have, operability obviously is 
something which has to be established when we are talking about 
possession of a firearm. So the lab has to do that test 
initially on every single firearm case we have. We have got a 
72-hour time limit for a preliminary hearing. So all those 
tests have to be done within 72 hours, and the testimony. If 
you don't have it, we can't prove it. The preliminary hearing 
is denied and the person is released without bail--is 
exonerated and the person is released.
    If we are talking about more serious cases, felony cases--
shootings, robbery, assaults, even homicides--and we are trying 
to match a bullet or a casing to a weapon, that is only done on 
a priority basis. We have to establish the immediate priority 
of that particular request so the lab can get to it. Many such 
tests are never, ever performed simply because the backlog 
becomes too great.
    Let's talk about a weapon, a shooting. How about tying that 
weapon into other unsolved shootings? Simply not done. We have 
neither the time nor the resources to go back and do that. So 
but for the real profile case, tying that weapon into other 
unsolved shootings simply isn't done.
    I heard NIBIN mentioned before, which is a wonderful 
system. It is like a DNA database, except it is for weapons. We 
don't have time to do the tests and submit the information to 
NIBIN. We are too busy working on the cases that are pending.
    Chairman Sessions. Do you agree with that, Mr. Hillman?
    Mr. Hillman. Absolutely.
    Mr. Clark. So here we are. There are two of us facing the 
same problem. A databank which would serve all of our people so 
well isn't getting all the information it needs because we 
don't have the resources to do that.
    Chairman Sessions. Is that done by the laboratory or the 
DA's office?
    Mr. Clark. No, sir. That is done by the laboratory. all of 
that work is done by the laboratory.
    If we are talking about gun powder residue, if we want to 
test clothing to find out whether an individual fired a weapon, 
if we want to find out perhaps the distance between shooter and 
victim, we have no capability of doing that at all. That has to 
be farmed out to private laboratories, with greater expense--we 
have to pay for that--and then the time frame that follows.
    Drugs. Twenty-five percent of all of our cases are drugs. I 
am listening and it is like I am hearing myself. The New York 
State penal statutes and regulatory codes require that a 
certain formula be followed. So a procedure may taken an 
individual chemist hours, and you have to follow that for 
evidentiary purposes and accreditation purposes. You can't 
short-cut the system. So we try to do that and we can't do it.
    We don't test misdemeanors. If we had to test misdemeanor 
amounts, the backlog would be measured in years rather than 
days or months. So we simply don't do it. We have to test not 
only for the type of drug, but the degree of purity, the 
weight, et cetera. All is essential for us to establish 
elements of our narcotics statutes. Oftentimes, we need that 
for a preliminary hearing if the person is being held.
    Seventy-two hours from the arrest, we have to hold a 
preliminary hearing. The result is we are simply not prepared 
to do that. So those defendants are released and the bail is 
exonerated. We can present it directly to a grand jury, but 
that could be weeks or months. We don't even have the 
capability--
    Chairman Sessions. And the defendant could be gone by that 
time.
    Mr. Clark. Oh, sure, gone, or as we heard here, sadly, 
committing other offenses while he is out.
    We don't even have the capability of testing for date rape 
drugs--Ecstasy, GHB, and things like that. We have to go to 
State or Federal facilities in order to do that, with all of 
the problems that attend it.
    I have given you some idea of the problems that we face 
everyday, day in and day out. Obviously, these things impact 
not only on the quality of proof that we are able to introduce 
during the course of a prosecution, but on the people's 
perception of what we should be doing.
    You mentioned earlier in your remarks that they see all 
these shows on television. It creates an expectation in them 
that the things we see in DNA exist across the board, and they 
simply don't. Often, sadly, the perception is that we are not 
doing all that we can do, when we have dedicated men and women 
that are working around the clock to do the very best job they 
can.
    Thank you, sir.
    [The prepared statement of Mr. Clark appears as a 
submission for the record.]
    Chairman Sessions. Well said.
    Dr. Baden?

  STATEMENT OF MICHAEL M. BADEN, M.D., DIRECTOR, MEDICOLEGAL 
 INVESTIGATIONS UNIT, NEW YORK STATE POLICE, NEW YORK, NEW YORK

    Dr. Baden. Thank you very much, Mr. Chairman. Thank you for 
honoring me with having me testify before you.
    There will be 45 murders today in this country; more than a 
third will not be solved. Most of the autopsies will be 
performed by hospital pathologists who are well-trained in the 
examination of natural disease--heart disease, cancer--and not 
by forensic pathologists who have the additional training to 
specifically investigate trauma, homicide, and unnatural death.
    The hospital pathologist who performed the autopsy on John 
Kennedy made serious mistakes that linger with us 40 years 
later. I was the chief forensic pathologist for the U.S. House 
of Representatives Select Committee on Assassinations in the 
late 1970's that reexamined President Kennedy's death. In its 
final report in 1979, the Select Committee urged that 
medicolegal investigation offices and crime labs be improved 
nationally, because it was recognized then that many mistakes 
were made nationally, and even with the autopsy of the 
President of the United States.
    Nothing was done to that end until Coverdell brought hope 
to improving medical examiner offices and the forensic science 
community. Today, in the United States, there are more than 
800,000 physicians. Less than 400 are full-time forensic 
pathologists. Some States have no forensic pathologists in the 
entire State.
    Mr. Chairman, I agree fully with your opening comments that 
crime labs around this country are in great trouble, and with 
in, the criminal justice system. Today, medical examiner 
offices and crime labs have the additional responsibilities 
that we didn't have in 1979 that we are the early-warning 
agencies for any death from acts of terrorism, from chemical or 
biological weapons. It is the medical examiner and the forensic 
scientist who must determine if a death is from anthrax, 
smallpox, SARS, cyanide, sarin gas. It is they who must recover 
the identifying bomb fragments or bullets from the body.
    We must develop, I believe, new forensic disciplines to 
meet these new threats, such as forensic infectious disease 
experts who are internists. Infectious agents with high 
contagion can spread globally very quickly and must be 
identified as quickly as possible for effective containment. 
The delay in identifying SARS in China resulted in global 
consequences.
    During the past 15 years, the development of DNA technology 
has been a wondrous addition to the medical community and to 
the ability of forensic scientists and police to investigate 
sex crimes and to identify the unknown death.
    But in my examination of the literature and DOJ statistics, 
less than 1 percent of all murders in this country involve 
sexual assault. They get a lot of publicity in the papers, but 
are small in number, fortunately. In my calculations, in less 
than 10 percent of murders does the perpetrator leave DNA 
evidence behind. Most murders are by gunshots from a distance. 
About 5 percent of crime labs' workload involves DNA analysis.
    Medical examiner offices and crime labs require properly 
trained forensic pathologists, crime scene investigators, 
criminalists, toxicologists, ballistics experts, fingerprint 
experts, odontologists, entomologists, anthropologists, as well 
as expertise in DNA analysis.
    The criminal justice system requires teamwork among all the 
forensic sciences to function properly.
    It is of interest the example Susan Hart Johns gave of the 
young University of Pennsylvania graduate student who was 
murdered in Philadelphia, whom they caught miraculously by DNA 
comparisons from rapes he did in another State. In that 
instance, the family has brought lawsuits against the 
Philadelphia police because they felt that they did not respond 
properly to her cries for help. They came, they wouldn't go in 
the door, they left. She was found dead. Training of police in 
how to respond to dangerous situations, domestic situations, 
how to collect evidence at the scene, is all part of what the 
forensic scientist initiative should include.
    The criminal justice system requires a national team of 
properly trained medical examiners and forensic scientists. 
Please consider all of the members of the team in your 
deliberations. To paraphrase Voltaire, we owe truth to all of 
the dead.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Baden appears as a 
submission for the record.]
    Chairman Sessions. Thank you, Dr. Baden.
    Peter Neufeld.

  STATEMENT OF PETER NEUFELD, CO-DIRECTOR, INNOCENCE PROJECT, 
  BENJAMIN N. CARDOZO SCHOOL OF LAW, YESHIVA UNIVERSITY, NEW 
                         YORK, NEW YORK

    Mr. Neufeld. Good afternoon, Senator Sessions. Thank you 
very much for permitting me to be here today. You might be 
surprised to know that I, too, agreed with everything you had 
to say at the beginning of these proceedings. I think your 
points were extremely well taken.
    Certainly, you know about the Innocence Project, and we 
will be the first to sing the praises of DNA technology and 
what it has done to bring truth to the criminal justice system, 
both in the pursuit of the guilty and also the clearing of the 
innocent. But we know firsthand that DNA plays a very small 
role in solving violent crime in this country.
    Even as much as we care about DNA technology and we want it 
to be used most effectively by law enforcement, we realize that 
even if we educated everybody about DNA and we had them using 
it in property crimes, as well as rapes and homicides, that 
nonetheless in at least 80 or 90 percent of the violent crimes 
there would be no biological evidence to test. If that is the 
reality, then the reality is that law enforcement has to rely 
on other forensic sciences to solve crime. It is as simple as 
that.
    I know that the sexiness of DNA has generated funds and 
generated all this concern nationwide, and we have been part of 
that as well. Obviously, whenever the public reads in a tabloid 
that a person who committed eight murders in Louisiana has been 
identified and apprehended through DNA, that is a big story. Or 
when somebody walks off of death after spending 20 years there 
for a crime he didn't commit, that is a big story.
    But it is all these other forensic disciplines that 
actually solve the overwhelming majority of crimes, and it just 
doesn't make any sense to give all the funding to DNA and not 
also give additional funding to these other forensic science 
disciplines. It is that simple.
    One of the things that we have learned from the wrongful 
conviction cases, Mr. Chairman, is that in over a third of 
those cases, the misapplication of forensic science played a 
critical role in sending an innocent person to prison or death 
row.
    What that means is this was not DNA testing; it was the 
other forensic science disciplines. These are cases that 
involve toxicology, involve ballistics, involve medical 
examiners' opinions, involve trace evidence, all those other 
disciplines. Some of the most famous involved hair. Twenty-one 
of our cases alone involved forensic scientists working in 
government laboratories stating that hairs matched when it 
turned out that they didn't match.
    We know and you know that every time they convict an 
innocent man, it is not just sending an innocent man to prison 
that is the problem. It is that the real bad guy is out there 
committing more crimes. So good forensic science makes sense 
from everybody's standpoint.
    We have seen so many cases where criminalists or crime lab 
personnel have wrongly excluded somebody. They have wrongly 
excluded a bad guy, and so a guy who committed a murder walks 
away from a crime even though he is guilty. If the laboratories 
had better funding, had better training, had better personnel, 
that would not have happened. So the bottom line is that bad 
forensic science is bad law enforcement.
    One of the things that we have been thinking about was a 
little bit different than what the other speakers have brought 
to you today: how to not only be concerned with providing 
additional funds to these different forensic disciplines, 
because God knows they need it and we certainly support that 
completely, but along with additional funding must go the 
responsibility of oversight, something that you are obviously 
very much educated about.
    Sure, Congress has to give these additional funds, but we 
are worried about the integrity of the results, as well, not 
just us, but obviously the public at large. A victim needs to 
know that when you have excluded somebody through toxicology or 
through trace evidence that you have excluded them 
professionally and you are not letting a guilty guy go. We all 
have to know that.
    One of the things that you have in the Federal Government 
that most States lack is you have oversight through the Office 
of the Inspector General. We all know about how the Inspector 
General has oversight over the FBI Crime Laboratory, and they 
can decide when it is appropriate to commence a forensic audit 
of something that went on there.
    We know how important forensic audits are in everything in 
life. When the space shuttle crashed, you didn't want it to be 
an in-house investigation by NASA. You folks in Congress 
demanded that it be an independent external audit. When the 
Enron scandal happened, people said, no, it can't be Enron or 
Arthur Andersen that looks into this; it has got to be an 
independent external audit. Well, the same things applies when 
there is some major mishap at a crime laboratory. You have it 
in the Federal Government, but these folks don't have it at the 
State level.
    Our suggestion is very simple and very inexpensive, and it 
goes like this: Allow the IG here at the DOJ which has 
expertise in this area to simply set up some guidelines, some 
parameters, and then allow each State on its own, because we do 
agree with you and the position that you have taken before as a 
matter of federalism that the running of the criminal justice 
system should be left to the States themselves to experiment 
with--so let the States come up with their own type of IG.
    It could be a different agency in each State, but there has 
to be some external, independent auditing mechanism in place, 
which means certain minimum Federal criteria, chosen by the 
States so that when there is a scandal--and my God, in the last 
year there have been more crime lab scandals in America, and 
you read about them in the newspapers, than in the preceding 5 
years.
    In those scandals, it wasn't just about innocent people 
being wrongly prosecuted or convicted. More often than not, it 
was about guilty people going free because of laboratory 
sloppiness. So we need to have somebody who can look into it 
when it happens, not to point the finger, but to make 
recommendations so this kind of thing doesn't happen in the 
future.
    So we are going to suggest that one of things you might do, 
which is very inexpensive, would be to set up this kind of 
local auditing system. Let the States do it their own way, but 
have it certified by the Federal Government in exchange for the 
generous contributions and support that hopefully you will be a 
part of.
    Chairman Sessions. Thank you. I think that has some 
potential. You know that labs get complained of and most of the 
time the complaints are not true. They are doing a good job, 
but have to defend themselves. Perhaps you would like to have a 
national group that could be called in, known to be 
independent. If Alabama wanted to verify that its laboratory is 
operating according to the highest level, they could be called 
on to do an independent audit.
    What do you think of that, Ms. Johns?
    Ms. Johns. Well, actually, in my opinion, there are 
resources that--
    Chairman Sessions. That is your accreditation process.
    Ms. Johns. Yes. That allows us to call in people external 
to our agency to come in and have outside eyes look at our 
processes and what we are doing in the laboratory.
    Chairman Sessions. Where do they come from?
    Ms. Johns. The American Society of Crime Laboratory 
Directors' accreditation is a not-for-profit organization that 
is comprised of--it has some full-time staff inspectors, but 
many of its inspectors are volunteer inspectors. I am an 
inspector for the ASCLD/LAB program, as well as a team captain, 
and I think it is an excellent, excellent program.
    I think that external audits can also be done contractually 
with some organizations such as the National Forensic Science 
Technology Center. So if you want to go hire someone to come in 
and audit your laboratory, you can contract with that agency to 
do that.
    I think this goes to my comments that I alluded to on 
accreditation. I really do feel that accreditation is something 
that our laboratories need, and that is what my colleague at 
the end of the table was speaking to, then I agree with that. I 
think that it is very, very important that we urge our 
laboratories to do that.
    Some of the problems in not getting evidence or DNA 
analyses into the database relate to laboratories not having 
external audits or reviews of the work they have done. That is 
one of the requirements of NDIS, and it could be one of the 
reasons that some laboratories are not getting their 
information into the database.
    Chairman Sessions. Thank you.
    Mr. Clark, you and Mr. Hillman are users of the--you are 
the customers, I guess, at one level.
    Mr. Clark. Yes, sir.
    Chairman Sessions. So are the police and sheriffs and 
deputies.
    I will start with you, Mr. Clark. Would you respond to the 
idea that if somebody were looking at this criminal justice 
system afresh and they realized that we had a shortage 
consistently of funding in the laboratory, which is critical to 
almost all of our cases moving forward, that even if they 
didn't have additional money, they would find some way to 
rearrange money to get it to the laboratories because it 
represents a bottleneck that undermines police departments and 
DAs' offices and court systems?
    Mr. Clark. WE have been for years robbing Peter to pay Paul 
to try and help them do that, Senator. I do feel that some of 
the Federal money that has been available recently has been a 
godsend to us.
    I think part of the problem is that we have to make people 
in local areas understand--those legislatures that control the 
purse strings have to understand the need. You have taken the 
time to do this today. I wish somebody in my area, and I wish 
somebody in Mr. Hillman's area would take the time to do this 
to realize how critical our need is. The county is only paying 
for 40 percent; you are paying for 60 percent. You are paying 
more for me than my own locality is, and that is not right.
    Chairman Sessions. Let's go back to the numbers you gave. 
About how many police and sheriffs and DAs?
    Mr. Clark. We have lots of policemen, we have lots of 
prosecutors, but we don't have many technicians to handle all 
that.
    Chairman Sessions. Their work is undermined, their work is 
effectively stymied as a result of a small lack in one part of 
this system. Would you agree?
    Mr. Clark. Yes, sir, that is true, and in many cases I am 
told that the COPS grant and things like that which put more 
policemen on the street don't consider laboratory technicians 
as law enforcement, so that they don't qualify under those 
grants of money. So what you are doing is helping in one sense. 
Policemen are going out on the street and making more arrests. 
It is just creating a bigger backlog in the labs.
    Chairman Sessions. Is that true, Ms. Johns, that lab 
technicians are not considered law enforcement for the purposes 
of COPS grants?
    Ms. Johns. I put it gracefully when I referred to us as the 
B team, but that is true. We are considered support personnel 
and most of these grants that he refers to do not address the 
crime laboratory problems.
    Chairman Sessions. That is something to think about, Mr. 
Clark.
    Mr. Hillman, you have been a user, also. Do you think in 
terms of priorities--let me just put it bluntly. In terms of 
priorities, do you think that improving the whole system could 
be effected better by working on the labs than almost any other 
part of it?
    Mr. Hillman. Yes, without question. It is probably the 
biggest cause of every delay that we have, and again not 
because these people aren't doing what they are supposed to do. 
They are just swamped. They don't have the time or the manpower 
to keep up with the system.
    Alabama grew 54 percent in 10 years. I can't tell you what 
their budget is, but it wasn't that much that it grew over that 
same 10-year period of time. And that stopped 3 1/2 years ago. 
Imagine where they are now.
    Chairman Sessions. Mr. Hillman, do you find that perhaps 
based on these television programs and that sort of thing that 
when you try a case, if there are five drops of blood on the 
scene and you test three of them, Mr. Neufeld would come in and 
say the real murderer was in those other two, why didn't you 
test those?
    Mr. Hillman. The general public now thinks that murderers--
their investigation, their processing at the lab, their arrest, 
the prosecution, and their incarceration occurs in 60 minutes. 
It just does not happen. It takes years sometimes.
    Chairman Sessions. Well, I was just kidding because people 
deserve vigorous defense and maybe the drops were somebody 
else's. But I think you have gotten to the point where we are 
testing--would you say, Mr. Clark, crime scenes are requiring 
more tests per crime scene than ever before?
    Mr. Clark. Absolutely, positively, and the sad part is we 
would love our laboratory technicians to be able to come to the 
crime scene. They could add a tremendous amount to that, but, 
of course, that is a pipe dream. They are still working 18 
hours a day trying to do the drug tests.
    One problem leads to another, leads to another, leads to 
another. But, yes, the expectations are so much greater, the 
time required is so much longer, and the problem isn't getting 
any better. The only thing that is growing is the backlogs.
    Chairman Sessions. Dr. Baden, are police and investigators 
sufficiently trained to preserve evidence when it gets to you 
or to Ms. Johns? Does that cause a problem sometimes?
    Dr. Baden. It often causes problems. Now, they have a trial 
going on down in South Carolina, the Peterson/East trial, the 
novelist who is accused of killing his wife and throwing her 
down a staircase. The defense on Court TV--they have cameras in 
the courtroom--is having a field day in showing all of the 
things that were done wrong by the technicians, the police 
tramping through the area improperly.
    We thought that had been explored sufficiently at the O.J. 
Simpson trial and that police agencies learned about it. There 
are many good agencies, but most of this country still--the 
crime scene analysis, the training for police officers, has not 
been effective enough or there hasn't been enough training.
    I might suggest that Dr. Jamie Downs advises me that 
nationally there is one lab person for every hundred police 
officers, and the lab persons can't manage that kind of 
workload. A better ratio would be 1 out of 40.
    Chairman Sessions. Dr. Downs used to be our director and he 
moved up to South Carolina.
    Dr. Baden. He is now in Georgia.
    Chairman Sessions. That is right, Georgia. He had an 
interest in recovering the remains of the Hunley submarine as 
one of his extra projects. He did good work on that.
    Dr. Baden. Yes. He is my guru; he is my rabbi right now.
    If I may, on a discussion about national concerns, it 
struck me as a physician that we have a Surgeon General who has 
been a bully pulpit over the years for doing research and for 
improving natural diseases--heart disease, cancer--and it has 
been a very effective bully pulpit.
    Maybe the time has come to have some kind of a national 
bully pulpit, like a forensic sciences general, who can have 
authorization to be a bully pulpit and to help set up the kind 
of programs, training programs. The most important link in the 
chain at a crime scene is the least experienced police officer, 
who is the first responder who is supposed to protect the 
scene.
    When we train the New York State Police and they say, well, 
we are here, we are trying to protect the scene and the bosses 
and the higher-ups come down, how do we keep them out--and the 
example I have used is you have a book; everybody that goes on 
the scene has to be signed in. You have the mayor or whoever it 
is there, because it is often a photo opportunity for certain 
kinds of people, sign in and tell them, look, if you go on that 
scene, you are the first witness that Peter Neufeld is going to 
call for the defense as possibly mucking up the scene or 
potentially having evidence destroyed.
    I would also like to make one point, too, about the World 
Trade Center. Of the 1,500 bodies that have been identified, 
out of the 2,800, the great majority have been done by 
traditional means--fingerprints, dental, x-rays, visual. Most 
of them have been identified that way.
    Chairman Sessions. Mr. Neufeld, do you want to comment on 
that?
    Dr. Baden. Point of personal privilege.
    Mr. Neufeld. No, no, no. I mean, actually, it is 
interesting. In New York State, we have a forensic science 
review board. We are the only State in the country that does 
have that. and what we have done for people like Mr. Clark is, 
in a sense, we have created certain standards and mandates, and 
therefore we have had to put our money where our mouths are and 
we have had to provide them and their laboratory with 
additional funding.
    So sometimes by requiring higher standards of laboratories, 
you create a mandate and then there has to be the money flowing 
so they can satisfy that. So it is not always a bad thing. It 
actually sometimes acts as a very good carrot device.
    The one little comment I did want to make, though, is a 
response to Ms. Johns. ASCLD accreditation is not enough. I am 
not even addressing that issue. Obviously, the internal audit 
that goes on through an ASCLD accreditation is very, very 
important. I am talking about a different situation.
    The FBI crime laboratory is ASCLD-accredited, but 
nevertheless there was a small scandal in that laboratory 
recently when it turned out that one of the scientists was 
consistently not utilizing a certain control which was 
essential in all the forensic DNA tests.
    So the IG of the DOJ commenced an audit, and they commenced 
that audit for a lot of reasons. They wanted to see what was 
the scope of the problem, where did the traditional controls 
fail, what changes should we make in their protocol which would 
make it more likely that that won't happen again. So it can 
even happen with accredited laboratories. I am talking about 
the forensic audit.
    Accounting firms ordinarily have wonderful means of doing 
internal audits, but if something serious goes wrong--I am not 
talking about two drops that weren't picked up. I am talking 
about the serious mishap, and we have seen them in Oklahoma, we 
have seen them in Indiana recently, and in Montana. The first 
three cases we have looked at involving a hair expert--all 
three of them were exonerated. He used testimony in a court of 
law which all of his peers at the FBI and the British Home 
Office said is nonsense and not scientific.
    So sometimes something does go wrong and needs to be 
investigated. You folks are experts at that, okay? All we are 
saying is that in those situations, there should be an 
independent external entity that does it. It can't be the folks 
doing it themselves.
    Chairman Sessions. There need to be reviews for specific 
allegations of wrongdoing.
    Mr. Neufeld. That is exactly right.
    Chairman Sessions. Some good thoughts. I think we ought to 
think about that as we go forward.
    I think back on my career and what the Innocence Project 
brings to mind, and when I have had a series of things like Ms. 
Serra talked about--a fingerprint, a DNA, and a paint--I have 
never had it come back that that person wasn't guilty. But I 
have seen two in my career that really were innocent and in 
danger of being convicted. One was convicted on eyewitness 
testimony. I don't know if others have seen that, too.
    We have got to be alert to the possibility of the innocent 
being convicted. I certainly believe that, but good 
circumstantial evidence, good scientific evidence has proven to 
me over the years from my personal experience to consistently 
lead us toward truth.
    I don't think you would dispute that, Mr. Neufeld.
    Mr. Neufeld. Dispute it? I wholeheartedly agree. I will 
take good toxicology and ballistics over a lone eyewitness 7 
days of the week, and I think you would, also.
    Chairman Sessions. All right. Do any of you have anything 
you want to add to this agenda at this point that is on your 
brain and heart before we go forward?
    Senators Grassley and Leahy have statements for the record, 
and we will leave the record open for one week for a additional 
statements and follow-up questions for all witnesses.
    I think we are getting to this, and this is what I would 
say to you. I don't believe that this Congress is going to fund 
the State laboratories to any significant degree ultimately. I 
think helping in critical areas, providing the best equipment, 
best training, and additional funds when laboratories are in 
crisis is very helpful. But I doubt and don't expect, and am 
not sure I can support a whole lot more money.
    I did fight for and help pass the Paul Coverdell forensic 
sciences bill, which has not been adequately funded, but 
provides for the kind of utilization of the money I think I 
hear you saying you favor.
    Would that be fair, Ms. Johns?
    Ms. Johns. Yes, I agree.
    Chairman Sessions. And so we can get some more money there, 
I hope. We are spending money on things that make the news and 
get people excited, and sometimes that is what Congress does. 
But in the long run, we have got to figure out a way to 
strengthen forensic sciences throughout America, and maybe a 
forensics czar wouldn't be a bad thing, to be able to go into a 
State and call all the newspaper editors together and say, 
look, you are spending all this on police and jails and 
prosecutors and judges and just this little bit on research. 
And you have got this backlog and something could be done.
    I believe once the information is out there, the American 
people would respond. There is so much on television, so much 
in novels and things, that people are more attuned to the 
capabilities of it. So that is where I am coming from.
    I will be supporting additional funding. I am going to be 
supporting that because we are funding a lot of aspects of 
criminal justice that need it less than this aspect. I intend 
to do all I can to create a circumstance in which States will 
be more successful in going to their counties to get them to 
contribute more. I know in Alabama, I think the Governor is 
convinced that forensics need more money in Alabama and somehow 
he is going to find it. I am proud to hear that, but we have 
been talking about it for a number of years.
    Anything else before we finish?
    Thank you for coming. This was a very valuable panel. We 
will look to utilize this to promote public policy that will 
help forensic sciences in America, and I think that will help 
criminal justice.
    Thank you very much. We are adjourned.
    [Whereupon, at 3:55 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T1831.001
    
    [GRAPHIC] [TIFF OMITTED] T1831.002
    
    [GRAPHIC] [TIFF OMITTED] T1831.003
    
    [GRAPHIC] [TIFF OMITTED] T1831.004
    
    [GRAPHIC] [TIFF OMITTED] T1831.005
    
    [GRAPHIC] [TIFF OMITTED] T1831.006
    
    [GRAPHIC] [TIFF OMITTED] T1831.007
    
    [GRAPHIC] [TIFF OMITTED] T1831.008
    
    [GRAPHIC] [TIFF OMITTED] T1831.009
    
    [GRAPHIC] [TIFF OMITTED] T1831.010
    
    [GRAPHIC] [TIFF OMITTED] T1831.011
    
    [GRAPHIC] [TIFF OMITTED] T1831.012
    
    [GRAPHIC] [TIFF OMITTED] T1831.013
    
    [GRAPHIC] [TIFF OMITTED] T1831.014
    
    [GRAPHIC] [TIFF OMITTED] T1831.015
    
    [GRAPHIC] [TIFF OMITTED] T1831.016
    
    [GRAPHIC] [TIFF OMITTED] T1831.017
    
    [GRAPHIC] [TIFF OMITTED] T1831.018
    
    [GRAPHIC] [TIFF OMITTED] T1831.019
    
    [GRAPHIC] [TIFF OMITTED] T1831.020
    
    [GRAPHIC] [TIFF OMITTED] T1831.021
    
    [GRAPHIC] [TIFF OMITTED] T1831.022
    
    [GRAPHIC] [TIFF OMITTED] T1831.023
    
    [GRAPHIC] [TIFF OMITTED] T1831.024
    
    [GRAPHIC] [TIFF OMITTED] T1831.025
    
    [GRAPHIC] [TIFF OMITTED] T1831.026
    
    [GRAPHIC] [TIFF OMITTED] T1831.027
    
    [GRAPHIC] [TIFF OMITTED] T1831.028
    
    [GRAPHIC] [TIFF OMITTED] T1831.029
    
    [GRAPHIC] [TIFF OMITTED] T1831.030
    
    [GRAPHIC] [TIFF OMITTED] T1831.031
    
    [GRAPHIC] [TIFF OMITTED] T1831.032
    
    [GRAPHIC] [TIFF OMITTED] T1831.033
    
    [GRAPHIC] [TIFF OMITTED] T1831.034
    
    [GRAPHIC] [TIFF OMITTED] T1831.035
    
    [GRAPHIC] [TIFF OMITTED] T1831.036
    
    [GRAPHIC] [TIFF OMITTED] T1831.037
    
    [GRAPHIC] [TIFF OMITTED] T1831.038
    
    [GRAPHIC] [TIFF OMITTED] T1831.039
    
    [GRAPHIC] [TIFF OMITTED] T1831.040
    
    [GRAPHIC] [TIFF OMITTED] T1831.041
    
    [GRAPHIC] [TIFF OMITTED] T1831.042
    
    [GRAPHIC] [TIFF OMITTED] T1831.043
    
    [GRAPHIC] [TIFF OMITTED] T1831.044
    
    [GRAPHIC] [TIFF OMITTED] T1831.045
    
    [GRAPHIC] [TIFF OMITTED] T1831.046
    
    [GRAPHIC] [TIFF OMITTED] T1831.047
    
    [GRAPHIC] [TIFF OMITTED] T1831.048
    
    [GRAPHIC] [TIFF OMITTED] T1831.049
    
    [GRAPHIC] [TIFF OMITTED] T1831.050
    
    [GRAPHIC] [TIFF OMITTED] T1831.051
    
    [GRAPHIC] [TIFF OMITTED] T1831.052
    
    [GRAPHIC] [TIFF OMITTED] T1831.053
    
    [GRAPHIC] [TIFF OMITTED] T1831.054
    
    [GRAPHIC] [TIFF OMITTED] T1831.055
    
    [GRAPHIC] [TIFF OMITTED] T1831.056
    
    [GRAPHIC] [TIFF OMITTED] T1831.057
    
    [GRAPHIC] [TIFF OMITTED] T1831.058
    
    [GRAPHIC] [TIFF OMITTED] T1831.059
    
    [GRAPHIC] [TIFF OMITTED] T1831.060
    
    [GRAPHIC] [TIFF OMITTED] T1831.061
    
    [GRAPHIC] [TIFF OMITTED] T1831.062
    
    [GRAPHIC] [TIFF OMITTED] T1831.063
    
    [GRAPHIC] [TIFF OMITTED] T1831.064
    
    [GRAPHIC] [TIFF OMITTED] T1831.065
    
    [GRAPHIC] [TIFF OMITTED] T1831.066
    
    [GRAPHIC] [TIFF OMITTED] T1831.067
    
    [GRAPHIC] [TIFF OMITTED] T1831.068
    
    [GRAPHIC] [TIFF OMITTED] T1831.069
    
    [GRAPHIC] [TIFF OMITTED] T1831.070
    
    [GRAPHIC] [TIFF OMITTED] T1831.071
    
    [GRAPHIC] [TIFF OMITTED] T1831.072
    
    [GRAPHIC] [TIFF OMITTED] T1831.073
    
    [GRAPHIC] [TIFF OMITTED] T1831.074
    
    [GRAPHIC] [TIFF OMITTED] T1831.075
    
    [GRAPHIC] [TIFF OMITTED] T1831.076
    
    [GRAPHIC] [TIFF OMITTED] T1831.077
    
    [GRAPHIC] [TIFF OMITTED] T1831.078
    

</pre></body></html>
